No. 19-

 

IN THE

Supreme Court of the Anited States

JONMICHAEL Guy,

Petitioner,
v.

WYOMING DEPARTMENT OF CORRECTIONS, BY AND THROUGH ROBERT
O. LAMPERT, INDIVIDUALLY AND IN HIS OFFICIAL CAPACITY AS DIREC-
TOR OF THE WYOMING DEPARTMENT OF CORRECTIONS, ET AL.,

Respondent.

JONMICHAEL Guy,

Petitioner,
v.

ROBERT O. LAMPERT, INDIVIDUALLY AND IN HIS OFFICIAL CAPACITY AS
DIRECTOR OF THE WYOMING DEPARTMENT OF CORRECTIONS, ET AL.,

Respondent.

On Petition for a Writ of Certiorari to the
Wyoming Supreme Court

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains

4,617 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 6, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
